 CONSOLIDATED FINANCIAL
     STATEMENTS FOR
FISCAL YEARS 2004 AND 2003
    Department of Transportation

    Report Number: FI-2005-009
   Date Issued: November 15, 2004
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Consolidated Financial               Date:    November 15, 2004
           Statements for Fiscal Years 2004 and 2003, DOT
           FI-2005-009

  From:    Kenneth M. Mead                                     Reply to
                                                               Attn. of:   JA-20
           Inspector General
    To:    The Secretary

           I respectfully submit the Office of Inspector General report on the Department of
           Transportation (DOT) Consolidated Financial Statements for Fiscal Years (FY)
           2004 and 2003 (see attachment). This report is required by the Chief Financial
           Officers Act of 1990, as amended by the Government Management Reform Act of
           1994.


           UNQUALIFIED OPINION
           This audit report concludes that DOT’s Consolidated Financial Statements are
           presented fairly, in all material respects, in conformity with U.S. generally
           accepted accounting principles. This is the fourth fiscal year in a row—2001,
           2002, 2003, and 2004—that DOT has achieved an unqualified or “clean” opinion.
           The clean audit opinion signals to users of the financial statements that they can
           rely on the information presented. This occurred as the Department completed its
           transition to a new, commercial off-the-shelf accounting system, called Delphi.
           According to DOT officials, DOT is the first cabinet-level agency to have
           implemented, Department-wide, a modern commercial off-the-shelf accounting
           system.

           The DOT Consolidated Financial Statements for FY 2004 show year-end assets of
           about $68 billion, year-end liabilities (debts) of $13 billion, costs of operations
           (program costs) of $54 billion, and total budgetary resources (available financial
           resources) of $105 billion. A significant portion of DOT’s budgetary resources
           come from two trust funds, the Highway Trust Fund (HTF) and the Airport and
           Airway (Aviation) Trust Fund, which are supported by a mixture of passenger,
                                                                                2


fuel, and user taxes. Tax collections deposited into those trust funds totaled
$44.4 billion during FY 2004.

On a cautionary note, less revenue than expected has been flowing into the trust
funds for several years. The reduction is due to changes in the aviation and
highway sectors, including the economic downturn and lower average airfares. At
the same time, the costs of building, operating, and maintaining the systems have
continued to increase. Historically, shortfalls have been subsidized by the U.S.
Treasury’s General Fund, but with the significant Federal deficit, this option may
prove increasingly difficult in the future.

The Department made progress correcting the internal control deficiencies we
reported last year. The Department made sufficient progress correcting two of the
material weaknesses―the Department’s information security program and FAA’s
oversight of cost-reimbursable contracts―that we are not reporting them as
material weaknesses this year.

FAA deserves credit for addressing significant challenges this year. FAA
encountered difficulties when it implemented DOT’s Delphi accounting system
and FAA’s new procurement system, called Prism, in November 2003. For the
most part, FAA financial managers were able to identify problems, track financial
activities that were not properly processed, and develop timely corrective action
plans because they have implemented more disciplined financial management
processes over the last 3 years.

HTF agencies, on the other hand, were less successful overcoming the financial
management deficiencies we reported last year. Because of the severity of the
problems and the limited time available to implement corrective actions, the
Federal Highway Administration (FHWA) was not able to make enough progress
to correct the underlying process deficiencies. The deficiencies required HTF
agency executives and financial managers, as well as the Office of Financial
Management to make a concerted effort to clean up bad data and generate reliable
financial statements. That largely manual effort was the key to obtaining a clean
opinion this year. Continued executive-level attention, backed by skilled
resources to implement disciplined processes, will be critical to correct the
remaining deficiencies.

I want to acknowledge the extraordinary efforts made by each of the Operating
Administrations, the Assistant Secretary for Budgets and Programs/Chief
Financial Officer, and KPMG LLP and Clifton Gunderson LLP (contractors we
engaged to audit the Federal Aviation Administration [FAA] and the HTF
financial statements). Also, this clean opinion would not have been possible
without your longstanding commitment to improving financial management
                                                                                                                 3


practices and the priority you repeatedly placed on meeting the Office of
Management and Budget’s accelerated reporting date of November 15, 2004.


INTERNAL CONTROLS
FAA, the HTF agencies,1 the Department’s Office of Financial Management, and
the auditors had to exert extraordinary efforts to overcome significant financial
management deficiencies in order to meet the accelerated due date for audited
financial statements. These deficiencies were due to weaknesses in internal
controls, which are the policies, procedures, and practices that need to operate
effectively to produce reliable and timely financial information. We categorized
the problems we identified into four material weaknesses and four reportable
conditions. Responding to a draft of this report, DOT agreed with these findings
and committed to taking timely corrective action.


Material Weaknesses
Material weaknesses are deficiencies in the design or operation of internal controls
that do not reduce, to a relatively low level, the risk that significant errors, fraud,
or noncompliance could occur and not be detected by employees in the normal
course of performing their duties.

• Financial Management and Reporting for Highway Trust Fund Agencies.
  Last year we reported that HTF agencies lacked the financial management
  procedures needed to generate reliable financial statements, and this deficiency
  also existed this year. As a result, the financial statements FHWA submitted
  for audit contained several large, multi-billion dollar errors and omissions. For
  example, FHWA incorrectly added about $2 billion to program costs. FHWA
  also incorrectly reallocated costs among programs, resulting in a total of
  $8 billion in changes to program line items. These errors were corrected in the
  published financial statements, but the repeated substantial changes
  demonstrated that financial management and reporting processes were not
  operating effectively.

• Financial Oversight of Highway and Transit Grants. FHWA and the
  Federal Transit Administration (FTA) must do more to ensure that grant funds
  are protected from fraud, waste, and abuse. In FY 2004, FHWA needed to
  improve financial oversight on 41 of the 45 highway grant projects (valued at
  $113 million) that we reviewed. In June 2003, we pointed out that a random

1
    Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit Administration,
    Federal Railroad Administration, Federal Motor Carrier Safety Administration, and the Bureau of Transportation
    Statistics.
                                                                                4


   sample of construction payments we reviewed showed that 7 percent of the
   payments were not adequately supported ($7 million of the $98 million).
   FHWA plans to begin reviewing state payment processes and testing a sample
   of payments during FY 2005. The key to achieving sustained improvements in
   this area will be follow-through to ensure that the reforms are implemented and
   that they operate effectively. While FTA has systems in place to monitor
   resources provided to transit authorities and municipalities, it too could do a
   better job of protecting Federal funds. For example, we recently found that
   FTA’s oversight did not take action on significant irregularities in change
   orders on a $2.25 billion project until they had accumulated to several hundred
   million dollars.

• Reconciling Transactions Within DOT and With Other Federal Agencies.
  Last year, we reported that DOT did not fully reconcile its transactions with
  other Federal agencies. To prepare DOT’s financial statements, transactions
  among DOT’s Operating Administrations must be tracked and eliminated to
  avoid overstating DOT’s financial statement results. Similarly, Federal
  agencies’ inability to account for transactions with other agencies is a major
  impediment to a clean audit opinion on the Financial Report of the United
  States Government. During FY 2004, DOT did not adequately track
  transactions among DOT Operating Administrations, which required
  management to perform extensive manual adjustments to prepare DOT’s
  consolidated financial statements. DOT has begun taking steps to better
  account for transactions with other Federal agencies, but at the end of
  September 2004, it still had not identified the other agency associated with
  about half of the $55 billion of intra-governmental transactions processed in
  FY 2004 and reported to Treasury.

• Financial System Controls. Last year, we reported that controls over the
  Delphi accounting system needed to be improved. Important security
  measures had not been implemented, system changes were not properly tested,
  and contingency planning was not adequate. DOT has made significant
  progress to correct these problems, but for most of FY 2004 the vulnerabilities
  continued to exist. This year, both Clifton Gunderson and KPMG identified
  other security issues affecting other financial systems that provide financial
  data to Delphi. These deficiencies increase the risk that erroneous financial
  transactions could occur, either intentionally or inadvertently, resulting in
  unreliable information being included in financial reports without being
  detected in a timely manner by management.
                                                                                   5


Reportable Conditions
Reportable conditions in internal controls, although not considered material
weaknesses, represent significant deficiencies in the design or operation of internal
controls that could adversely affect the DOT consolidated financial statements.

• Cost-Reimbursable Contracts at FAA. Last year we reported a material
  weakness in FAA’s management of cost-reimbursable contracts. During
  FY 2004, FAA management took aggressive actions to implement better
  controls by identifying all cost-reimbursable contracts and closing most old
  completed contracts. FAA also obtained $3 million to audit cost-reimbursable
  contracts and used the funds to request 185 audits. A reportable condition
  continues because FAA still has about $1.5 billion associated with overage
  contracts that it must close. FAA is continuing to review and close these old
  contracts and is taking other steps to strengthen its oversight of
  cost-reimbursable contracts.

• DOT’s Information Security Program. Last year, based on audits of the
  Department’s overall information system security program, we reported DOT’s
  information security program as a material internal control weakness. The
  most noteworthy improvements made during FY 2004 include increased
  oversight of information technology investment management and security
  controls, strengthened protection of DOT’s network infrastructure against
  attacks, and enhanced security protection of individual computer systems.
  Continued action is needed to improve security certification reviews, configure
  computers according to security standards, and develop and test system
  contingency and continuity plans.

• MARAD’s Oversight of Title XI Loan Guarantees. Last year, we reported
  that the Maritime Administration (MARAD) needed to better ensure that
  inventory, property, and environmental liabilities are reported properly. This
  year, we found that MARAD has corrected those problems. Last year we also
  reported that MARAD needed to improve its oversight of the Title XI loan
  guarantee program. During FY 2004, MARAD designed procedures to
  strengthen its oversight process for Title XI loan guarantees. What remains to
  be done is to aggressively and effectively implement the new procedures. This
  will be critical to ensure that MARAD’s $3.6 billion loan guarantee portfolio is
  properly managed. This is of considerable importance because MARAD has
  determined that over 25 percent of its portfolio is at an elevated risk of default.

• Accounting for Loans in Delphi. In FY 2003, we reported that DOT needed
  to improve how it accounts for the direct loans it provides to grantees in
  Delphi, and this condition still exists as of September 30, 2004. The Delphi
  accounting system does not include a process to account for expected loan
                                                                               6


   repayments from grantees, which were valued at $604 million on
   September 30, 2004. Instead, DOT relied on information from outside the
   accounting system (such as commercial banks) to track loan transactions, and
   some Operating Administrations did not routinely reconcile their loan
   balances. This year, the Department established a task force to identify a
   corrective action plan.

We provided a draft of this report to the DOT Assistant Secretary for Budgets and
Programs/Chief Financial Officer, who concurred with the findings and agreed to
implement the recommendations. DOT and its Operating Administrations have
also initiated corrective actions to address the internal control and compliance
issues identified by KPMG and Clifton Gunderson in their reports.

We appreciate the cooperation and assistance of DOT, KPMG, and Clifton
Gunderson representatives. If we can answer any questions, please call me at
(202) 366-1959 or Ted Alves, Assistant Inspector General for Financial and
Information Technology Audits, at (202) 366-1496.

Attachment

                                       #
                                  TABLE OF CONTENTS


Independent Audit Report
on the Department of Transportation
Consolidated Financial Statements
for Fiscal Years 2004 and 2003................................................................................ 1

A.       Unqualified Opinion on Financial Statements .............................................. 2

B.       Consideration of Internal Controls................................................................ 3

C.       Compliance with Laws and Regulations..................................................... 12

D.       Consistency of Other Information............................................................... 15

E.       Prior Audit Coverage................................................................................... 16

EXHIBIT A: Objectives, Scope, and Methodology.............................................. 17

EXHIBIT B: Financial-Related Reports ............................................................... 20

Appendix: Assistant Secretary for Budget and
Programs/Chief Financial Officer Response to Audit Report................................ 21

Consolidated Balance Sheet ................................................................................... 22

Consolidated Statement of Net Cost ...................................................................... 23

Consolidated Statement of Changes in Net Position.............................................. 24

Combined Statement of Budgetary Resources....................................................... 25

Consolidated Statement of Financing..................................................................... 27

Notes to the Financial Statements .......................................................................... 29

Supplementary Information.................................................................................... 63

Management’s Discussion and Analysis................................................................ 80

Performance Report.............................................................................................. 102
                  DEPARTMENT OF TRANSPORTATION
           INSPECTOR GENERAL’S INDEPENDENT AUDIT REPORT
               ON THE DEPARTMENT OF TRANSPORTATION
                CONSOLIDATED FINANCIAL STATEMENTS
                    FOR FISCAL YEARS 2004 AND 2003


To the Secretary

The Department of Transportation (DOT), Office of Inspector General (OIG),
audited the DOT Consolidated Financial Statements for the years ended
September 30, 2004, and September 30, 2003. In our audit “DOT Consolidated
Financial Statements for Fiscal Years 2004 and 2003,” we found:

      • Financial statements that are fairly presented, in all material respects, in
        conformity with U.S. generally accepted accounting principles.

      • Four material internal control weaknesses: financial management and
        reporting for Highway Trust Fund agencies,1 oversight of highway and
        transit grants, reconciling transactions within DOT and with other Federal
        agencies, and financial system controls; and four reportable conditions: cost
        reimbursable contracts at the Federal Aviation Administration (FAA),
        DOT’s information security program, the Maritime Administration’s
        (MARAD) oversight of Title XI loan guarantees, and accounting for loans
        in Delphi.

      • Instances of noncompliance with the Federal Financial Management
        Improvement Act of 1996, the Anti-Deficiency Act, the Federal Managers’
        Financial Integrity Act, the Single Audit Act, and the Government
        Performance and Results Act.

      • Financial information in the Management Discussion and Analysis was
        materially consistent with the financial statements.

      • Supplementary and stewardship information was consistent                                            with
        management representations and the financial statements.

We performed our work in accordance with Government Auditing Standards and
Office of Management and Budget (OMB) Bulletin 01-02, “Audit Requirements
for Federal Financial Statements.” The following sections discuss these
1
    Federal Highway Administration, National Highway Traffic Safety Administration, Federal Transit Administration,
    Federal Railroad Administration, Federal Motor Carrier Safety Administration, and the Bureau of Transportation
    Statistics.


                                                          1
conclusions. Our audit objectives, scope, and methodology are in Exhibit A. We
believe that our audit provides a reasonable basis for our opinion.


A. UNQUALIFIED OPINION ON FINANCIAL
STATEMENTS
In our opinion, the consolidated financial statements, including the accompanying
notes, present fairly, in all material respects, in conformity with U.S. generally
accepted accounting principles, the DOT assets, liabilities, and net position; net
costs; changes in net position; budgetary resources; and reconciliation of net costs
to budgetary obligations as of September 30, 2004, and September 30, 2003 and
for the years then ended.

Under contract with OIG and under our supervision, KPMG LLP audited the
financial statements of FAA as of and for the years ended September 30, 2004,
and September 30, 2003. KPMG rendered an unqualified opinion on the FAA
financial statements. Also under contract with OIG and under our supervision,
Clifton Gunderson LLP audited the financial statements of the Highway Trust
Fund (HTF) as of and for the years ended September 30, 2004, and
September 30, 2003. Clifton Gunderson rendered an unqualified opinion on the
HTF financial statements. We performed a quality control review of the work
performed by KPMG and Clifton Gunderson and relied on their results in
performing our work on the FYs 2004 and 2003 DOT Consolidated Financial
Statements.

As discussed in Note 17, the accompanying financial statements reflect actual
excise tax revenues deposited in the HTF and the Airport and Airways Trust Fund
through March 31, 2004, and excise tax receipts estimated by the Department of
the Treasury Office of Tax Analysis for the two quarters ended June 30, 2004, and
September 30, 2004.

As discussed in Note 17, DOT restated the FY 2003 Balance Sheet, Statement of
Net Costs, Statement of Changes in Net Position, and Statement of Financing to
properly report transactions with the Department of Agriculture related to
MARAD’s administration of the Cargo Preference Program. As discussed in Note
18, DOT also restated the FY 2003 Statement of Budgetary Resources to properly
report its FY 2003 budget authority and unobligated balances. We audited these
adjustments and concluded that they were appropriate and properly applied.




                                         2
B. CONSIDERATION OF INTERNAL CONTROLS
In planning and performing our audit, we considered DOT’s internal controls over
financial reporting and compliance with laws and regulations. We do not express
an opinion on internal controls and compliance because the purpose of our work
was to determine our procedures for auditing the financial statements and to
comply with OMB Bulletin 01-02 audit guidance, not to express an opinion on
internal controls.

For the controls we tested, we found four material weaknesses. A material
weakness is a condition in which the design or operation of one or more of the
internal control components does not reduce, to a relatively low level, the risk that
errors, fraud, or noncompliance that would be material to the financial statements,
may occur and not be detected promptly by employees in the normal course of
performing their duties.

Our work identified four reportable conditions in internal controls. Reportable
conditions in internal controls, although not considered material weaknesses,
represent significant deficiencies in the design and operation of internal controls
that could adversely affect the amounts reported in the DOT Consolidated
Financial Statements. Our internal control work would not necessarily disclose all
material weaknesses or reportable conditions.


MATERIAL WEAKNESSES
The following sections describe the material weaknesses that we identified.


HTF Agencies’ Financial Management and Reporting Activities
Material deficiencies continue to exist in internal controls over financial
management and reporting activities in the HTF agencies. Last year we reported
that HTF agencies, in particular the Federal Highway Administration (FHWA),
lacked basic accounting and financial management policies and procedures needed
to generate reliable financial statements in a timely manner. Management agreed
to implement a series of recommendations to correct these deficiencies and has
begun doing so. However, because of the severity of the problems that existed and
the limited time available to design and implement corrective actions, FHWA was
not able to correct the underlying process deficiencies.

As a result, FHWA continued to encounter significant problems generating
reliable financial information. To illustrate, the financial statements submitted for
audit had not been fully analyzed and were not reliable. Over $18 billion of
adjustments to the financial statements were needed to correct errors and

                                          3
omissions. To a large extent, these errors and omissions occurred because FHWA
did not have time to implement more disciplined practices to compile financial
information, reconcile conflicting or incomplete information, and analyze and
review the financial statements to ensure that they were reliable. FHWA, with
support from the Department’s Office of Financial Management, needs to continue
aggressive efforts to correct these deficiencies.

Last year we reported that HTF agencies lacked adequate accounting and financial
management policies, procedures, and processes. Problems caused by those
longstanding deficiencies were compounded last year because two major HTF
agencies (FHWA and the Federal Motor Carrier Safety Administration) had not
adequately planned or implemented their conversions to the Department’s new
accounting system, Delphi. HTF agencies and DOT officials recognized the
significance of the deficiencies and committed to take timely corrective actions.
However, because the audited financial statements were not issued until
January 30, 2004 (almost 6 months into this fiscal year), HTF agencies got a late
start implementing changes. The timeframe was further reduced because audited
financial statements had to be completed earlier than usual this year, by
November 15, 2004. As a result, while they made progress, material deficiencies
still exist in financial management and reporting activities in HTF agencies,
particularly in FHWA.

Even though the audit of the FY 2004 financial statements was completed by the
November 15, 2004 OMB deadline, the HTF agencies expended a tremendous
amount of manual effort to “clean up” their accounting records to prepare
auditable financial statements as of September 30, 2004. Required accounting
processes, including processes to prepare and analyze financial statements and to
reconcile accounting transactions, did not operate effectively during the year.
These problems were compounded at FHWA because it was still cleaning up
unreliable data that had been converted to the new accounting system in
February 2003.

To illustrate, FHWA did not automate its financial statement preparation process
until the final quarter of FY 2004. As a result, for most of the year, the process
used to generate financial statements was labor intensive and prone to error.
Rather than using the accounting system to prepare financial statements, HTF
agencies manually re-entered data generated by the accounting system into
spreadsheets to prepare consolidated agency financial statements. This increased
the risk of errors and limited resources available to analyze financial statement
presentations. The new financial statement preparation process should alleviate
this problem next year.

Further, FHWA was not able to correct unreliable accounting records until the end
of the year. As a result, financial statements submitted for audit contained

                                        4
numerous errors and FHWA had difficulties providing complete and accurate
documentation to support its financial statements. For example, 4 weeks after the
end of the year, and 2 weeks before audited financial statements were due to
OMB, FHWA had to make a number of adjustments to financial statement
accounts, increasing costs by $760 million. FHWA also made several attempts to
correct program cost estimates and properly allocate costs among its programs. In
one attempt, FHWA incorrectly added about $2 billion to program costs because it
did not understand how to generate program cost numbers. In another, FHWA
incorrectly reallocated costs among programs, resulting in a total of $8 billion in
changes to all program line items.

FHWA also did not significantly improve its ability to analyze and understand its
financial statements. Management must take responsibility for generating reliable
financial statements, understanding how different financial accounts relate to one
another, and understanding how program changes affect the financial statements.
Although FHWA adopted the financial statement analysis practices that Clifton
Gunderson had suggested, the practices were not implemented effectively. As a
result, errors that should have been detected from a close reading and analysis of
the statements were not detected. For example, costs for the Federal Lands
program were identified in the September 30, 2004 financial statements as
$61 million, even though costs had been reported to be $221 million in June 2004.
Reported program costs changed several times during the audit process and
ultimately totaled $222 million, indicating that the June 2004 statements were not
reliable.

Clifton Gunderson made a series of recommendations to improve financial
management and reporting activities in its financial statement audit report, dated
November 8, 2004. DOT agreed to implement the recommendations. Therefore,
we are not making additional recommendations in this report.


Financial Oversight of Highway and Transit Grants
FHWA and the Federal Transit Administration (FTA) must establish stronger
financial and cost controls to better ensure that grant funds are protected from
fraud, waste, and abuse. This is especially important in a time of increasing
demands for transportation investments and large Federal deficits. FHWA,
however, currently provides little financial oversight of the billions of dollars it
provides to states and municipalities each year. Over the last year, there has been
a major shift in direction, and the Department now recognizes the need to improve
oversight of these resources. As a result, plans are underway to implement much
improved oversight processes to provide the needed oversight. Follow-through to
ensure the reforms are implemented effectively will be the key to sustained
improvement in this area.        FTA has systems in place to monitor resources


                                         5
provided to transit authorities and municipalities, but it too could improve its
oversight of Federal funds disbursed to grantees.

We previously reported that FHWA frequently did not perform financial
management reviews of grantees. This year, we identified additional issues that
raise further questions about the adequacy of FHWA’s oversight. First, FHWA
does not have an effective process to require its Division Offices to assess grantee
financial management risks, and does not require them to review grantee payment
controls, or spot check a sample of actual payments for reasonableness. For grant
projects examined during the HTF financial statement audit, FHWA did not
provide this financial management oversight for 41 of 45 projects, with obligations
totaling $113 million. This is significant because, as we pointed out in June 2003,
controls over highway grant payments were not effective. We reviewed a random
sample of construction payments and determined that 7 percent of the payments
were not adequately supported ($7 million of $98 million reviewed). FHWA also
reported that its electronic payment system was modified to automatically pay
grantees without any review by an FHWA official. Fourteen Division Offices
made payments of about $4 billion this year using this method. FHWA
management discontinued the practice as soon as they discovered it.

We have testified that FTA provides more oversight of how grantees use Federal
resources than FHWA, but it too can do a better job. For example, FTA uses
project management oversight and financial management oversight contractors to
provide early warnings of cost, schedule, and quality problems. However, the
quality of this oversight can be improved, particularly in the areas of spot-
checking grantee cost and schedule estimates. To illustrate, in the case of Puerto
Rico’s Tren Urbano, costs almost doubled from $1.25 billion to $2.25 billion and
the project encountered a 3-year delay in opening the system to passengers.
Although FTA required Tren Urbano to prepare a plan to address the issues, the
plan was not adequate because it did not identify actions or establish timeframes to
address all safety-critical issues. In addition, we recently found that FTA
oversight did not take action on significant irregularities in change orders on a
$2.25 billion project until they had accumulated to several hundred million dollars.

We also continue to handle significant numbers of fraud cases. Over the last
5 years, our investigations have yielded 128 convictions (29 in FY 2004 alone)
and more than $90 million in recoveries from fraud on highway and transit
projects.

DOT is undertaking two efforts to improve FHWA grant oversight. The FHWA
Administrator plans to establish a new policy in FY 2005 that will require its
52 Division Offices to perform much more stringent oversight, including
reviewing state payment processes and testing a sample of actual payments. The
policy has not been approved or implemented. It represents a good first step—a

                                         6
commitment and a plan. After it is approved, it will take time to implement and,
as with any major change, FHWA will face a significant challenge implementing
the policy in its 52 Division Offices. When fully implemented, the new policy
will go a long way to reducing the risk of losses to fraud, waste, or abuse. Second,
we worked with the Office of the Secretary and OMB to establish a pilot project in
one state to estimate the extent of improper payments in the Federal aid highway
program. That project should provide an estimate of the amount of improper
payments in the Highway program.


Reconciling Transactions Within DOT and With Other Federal
Agencies
Last year, we reported that DOT had not implemented effective processes to
reconcile its transactions with other Federal agencies. Although DOT has initiated
improvements and made progress during FY 2004, as of September 30, 2004, it
had not corrected the problem. In addition, DOT does not have an effective
process to reconcile transactions among its Operating Administrations.

To prepare DOT’s financial statements, transactions among DOT’s Operating
Administrations must be tracked and eliminated to avoid overstating DOT’s
financial results. Although DOT is implementing improved processes, during
FY 2004, it did not adequately track these transactions. To illustrate, DOT’s
Operating Administrations reported to the Department’s Office of Financial
Management a total of $17 million in accounts receivable, or amounts due from
other Operating Administrations. The same organizations, however, reported
$582 million in accounts payable, or amounts owed to other Operating
Administrations. Because these amounts should reflect all transactions within
DOT, the amount due should match the amount owed. Management had to
perform extensive research and make manual adjustments to balance the books in
order to prepare reliable financial statements.

Similarly, Federal agencies’ inability to account for and eliminate transactions
with other Federal agencies is a major impediment to a clean audit opinion on the
Financial Report of the United States Government. For example, when the Volpe
National Transportation Systems Center performs reimbursable work for the
Department of Defense, both agencies need to track the value of the work
performed and report similar amounts to Treasury. Treasury then needs to
eliminate the transactions from the Government-wide financial statement to avoid
overstating financial results on the Financial Report of the United States
Government. OMB Bulletin 01-09, “Form and Content of Agency Financial
Statements,” requires agencies to reconcile asset, liability, and revenue amounts
with other agencies by confirming the balances with those agencies on a quarterly
basis.


                                         7
During FY 2004, DOT partially confirmed or reconciled transactions with other
Federal agencies. A new reporting tool within the financial management system
helped facilitate these reconciliations. However, at the end of September 2004,
DOT still had not identified the other agency associated with about $27 billion, or
about half, of the $55 billion of transactions with other Federal agencies that were
processed and reported to Treasury in FY 2004. The large amount associated with
unknown trading partners demonstrates that DOT does not yet have an effective
process to reconcile and eliminate these transactions. Until DOT is able to
automatically track transactions with other Federal agencies, it will not be able to
make significant progress reconciling balances with those agencies.


Financial System Controls
Last year, we reported Delphi computer control weaknesses as a reportable
condition. We found that important security measures such as password controls
and removing terminated employees’ access to systems had not been implemented
or enforced, system changes were not properly tested, and contingency planning
was not adequate. Based on the existence and magnitude of these vulnerabilities,
we concluded that financial auditors would need to perform additional testing of
financial transactions processed by Delphi. We issued 17 recommendations to
correct these weaknesses.

During FY 2004, DOT made good progress in correcting Delphi computer control
weaknesses. In June 2004, DOT reported that that all but five recommendations
had been corrected. As of September 30, 2004 management stated that it had
completed corrective actions on all but one recommendation. We have not yet
validated that these corrective actions are operating effectively but plan to do so in
FY 2005.

Our contractors also found computer security weaknesses in a number of systems
that provide financial data to Delphi. KPMG concluded that computer security of
systems supporting FAA financial management reporting needed improvement.
Control weaknesses included inadequate password controls, missing security
patches, inadequate system change controls, lack of separation of duties, and key
security positions that were not defined.

Clifton Gunderson found that computer security over systems supporting financial
management and reporting for the HTF agencies also needed improvement.
Control weaknesses identified in FHWA and/or FTA financial systems include
financial system certification and accreditation, risk assessments, system testing
and evaluation, background checks for system contractors, user profile
management, logical access controls, financial systems access for separated
employees, backup tape management, and alternate processing facilities. Clifton


                                          8
Gunderson also found problems with grant approval and payment edit features,
and insufficient documented procedures for managing user accounts and sensitive
information produced by the systems.

KPMG and Clifton Gunderson provided a series of recommendations to DOT,
FAA, FHWA, and FTA for improving these areas. Management concurred with
all findings and recommendations and has taken or has initiated corrective actions.


REPORTABLE CONDITIONS
Reportable conditions in internal controls, although not considered material
weaknesses, represent significant deficiencies in the design or operation of internal
controls that could adversely affect the DOT consolidated financial statements.


FAA Oversight of Cost-Reimbursable Contracts
Last year, we reported a material weakness with FAA’s management of
cost-reimbursable contracts. During FY 2004, FAA implemented a corrective
action plan to strengthen its management of cost-reimbursable contracts. As a
result of actions taken and controls put in place, we have downgraded the material
weakness to a reportable condition. It remains a reportable condition because
FAA still has about $1.5 billion associated with overage contracts that must be
closed to identify allowable costs and excess obligated balances.

As part of its corrective actions, FAA identified all completed and ongoing
cost-reimbursable contracts; obtained $3 million in funding that it used to initiate
185 requests for incurred cost audits of reimbursable contracts; established an
internal control procedure to reconcile, on a quarterly basis, amounts billed by
contractors to amounts recorded as contract expenses; modified performance
measures for contracting officers to ensure that cost-reimbursable contracts are
audited in accordance with FAA’s audit policy; established a quarterly internal
control procedure to verify whether contractor staff met contractual requirements;
and revised procedures to ensure that officials consider cost-effective alternatives
before requesting new acquisition baselines.

FAA is continuing to review and close old contracts valued at about $1.5 billion.
In addition, FAA is in the process of analyzing the results of an Activity Value
Analysis of its contracting activities, which recommended additional changes in
contract administration procedures. FAA will need to take actions to implement
the proposed changes.




                                          9
DOT Information Security Program
Last year, we reported DOT’s information technology security program as a
material internal control weakness for the third year in a row. In October 2004,
we issued our fourth annual report on DOT’s Information Security Program as
required by the Federal Information Security Management Act. Based on the
progress the Department has made and the current status of the security program,
we are of the opinion that the DOT’s information security program should be
considered a reportable condition.

The most noteworthy improvements DOT has made since we began the annual
information security review in FY 2001 include increased oversight of information
technology investment management and security controls, strengthened protection
of DOT’s network infrastructure against attacks from both outside and inside of
the Department, and increased percentage of computer systems completing the
security certification review. For example, during FY 2004, the Department
increased the number of systems having completed a security certification review
from 33 percent to over 90 percent. The office of the departmental Chief
Information Officer also issued guidelines for configuring computers in a secure
manner to prevent vulnerabilities.

Although DOT has made significant progress, we identified security issues that
require continued management attention. Specifically, DOT needs to improve the
quality of security certification reviews and better ensure that planned corrective
actions are implemented. Our review of 20 systems that had been certified as
having adequate security protection found deficiencies in the certification review
process. Deficiencies included inadequate assessments of the risks facing the
system; lack of evidence that tests were performed—in one case, a test item that
had been listed as passed failed when we re-tested it; incomplete presentations of
remaining weaknesses to responsible senior officials; and flaws in approving
systems for operations.

Because we have made recommendations in other reports to help the Department
further enhance its information security protection and oversight of its multi-
billion dollar annual information technology investment, we are not including
recommendations in this report.


MARAD Oversight of Title XI Loan Guarantees
Last year, we reported that MARAD needed to better ensure that inventory,
property, and environmental liabilities are reported properly. This year, we found
that MARAD corrected those problems.



                                         10
Last year we also reported that MARAD needed to improve its oversight of the
Title XI loan guarantee program loan application process; borrowers; vessels and
shipyards constructed under loan guarantees; and foreclosed assets. The loan
guarantees are designed to assist private companies to obtain financing for
constructing ships or modernizing U.S. shipyards—with the Government holding
a mortgage on the equipment or facilities financed.

During FY 2004, MARAD designed procedures to strengthen its oversight process
for Title XI loan guarantees but needs to do more. In particular, effective and
aggressive implementation of the new procedures will be critical to ensure that its
$3.6 billion loan portfolio is properly managed. Effectively implementing these
improvements is of considerable importance because MARAD has determined
that over 25 percent of its portfolio is at an elevated risk of default.

In September 2004, we issued a follow-up audit report that identified three related
issues that need to be fixed to ensure that MARAD’s oversight is effective. First,
MARAD was not sufficiently enforcing the requirements that borrowers establish
and maintain specified financial reserves to mitigate the risks of noncompliant
loans. Second, MARAD lacked the expertise or resolve to effectively address
troubled loans. Third, MARAD’s rudimentary financial monitoring system was
not yet adequate to effectively manage its $3.6 billion loan portfolio.

Establishing good procedures is just the first step; fully implementing them is the
next one. While MARAD has worked to get satisfactory procedures in place, the
proof will be in the follow through and implementation with respect to specific
loan guarantee applications. Strong leadership and a staff committed to
implementing the strengthened procedures will be critical to realize the intended
benefits and reduce risks to the Title XI loan guarantee portfolio. The Department
will also need to monitor MARAD’s progress to assure appropriate actions are
taken to mitigate risks to the existing $3.6 billion loan guarantee portfolio and to
any new loan guarantees. We plan to conduct a follow-up audit of MARAD’s
implementation progress.


Accounting for Loans in Delphi
In FY 2003, we reported that DOT needed to improve the accounting for loans
receivable in Delphi, and this condition still existed on September 30, 2004. The
new DOT accounting system, Delphi, does not include a module or subsidiary
ledger system to accurately account for anticipated loan repayments from
borrowers, valued at $1 billion on September 30, 2003, and $604 million on
September 30, 2004. FHWA and the Federal Railroad Administration recorded
loan activity at a summary level directly into the Delphi accounting system and
relied on information from outside the accounting system (such as from


                                         11
commercial banks) to maintain detailed loan transaction information. Those two
Administrations also did not periodically reconcile their recorded balances to the
detailed transaction level information during the year.

In FY 2003, we recommended that DOT establish a module or subsidiary system
in Delphi to improve accounting for loans receivable and require FHWA and the
Federal Railroad Administration to routinely reconcile loans receivable balances.
DOT agreed and, in FY 2004, established a Credit Reform Workgroup to discuss
how best to account for loan activity.


C. COMPLIANCE WITH LAWS AND REGULATIONS
In planning and conducting our audit, we performed limited tests of DOT’s
compliance with laws and regulations as required by OMB guidance. It was not
our objective to express, and we do not express, an opinion on compliance with
laws and regulations. Our work was limited to testing selected provisions of laws
and regulations that would be reportable under Government Auditing Standards or
under OMB guidance.         Our work disclosed the following instances of
noncompliance with laws and regulations.


FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT
OF 1996 (FFMIA)
Under FFMIA, we are required to report whether DOT’s financial management
system substantially complies with (1) Federal financial management system
requirements, (2) applicable Federal accounting standards, and (3) the
U.S. Government Standard General Ledger at the transaction level. DOT’s
financial management system includes the core accounting system and supporting
financial management systems that provide financial data to the core accounting
system.

FFMIA requires agencies to produce auditable financial statements based on data
from the agency’s financial system on a timely basis. Given the problems HTF
agencies, and FHWA in particular, encountered in generating reliable financial
statements in a timely manner and the difficulties they encountered with their
accounting and reporting systems, Clifton Gunderson concluded that the systems
did not substantially comply with Federal financial management system
requirements for the year ended September 30, 2004.

•   Preparation of Financial Statements. The process used by HTF agencies,
    primarily FHWA, was not adequate to prepare reliable and timely financial


                                        12
   statements during the year ended September 30, 2004. In order to prepare the
   HTF financial statements, an extensive number of adjustments were made to
   the accounting records. Even though some of these adjustments are considered
   “normal clean-up” entries, many were the result of manually intensive analysis
   and reconciliations performed outside the system.

• Use of Standard General Ledger. Several HTF agencies did not use Delphi
  to capture all accounting events at the transaction level to meet OMB or
  Treasury reporting requirements and FHWA suspense account transactions did
  not follow the posting rules set forth by Treasury.

• Federal Accounting Standards. Some HTF agencies were not in full
  compliance with the Managerial Cost Accounting Concepts and Standards for
  the Federal Government and the related provisions of the Government
  Performance and Results Act. The FY 2004 HTF financial statements did not
  properly reflect full costs or measure the effectiveness of the agencies’
  programs. The HTF Statement of Net Cost was not presented by major
  program and was not comparable to DOT’s major goals and outputs as
  described in its strategic and performance plans.

Clifton Gunderson also found that certain HTF financial management systems did
not have adequate data processing controls, an important component of Federal
system requirements. For example, Clifton Gunderson found that FHWA and
FTA systems do not have sufficient financial management controls to reasonably
ensure that payments to grantees are properly paid.

KPMG also found that the FAA was not in substantial compliance with FFMIA.
KPMG found the FAA uses DOT’s core accounting system, Delphi, to process
and record financial transactions and FAA’s Prism system to process procurement
related activities. However, after the implementation of Delphi and Prism, FAA
encountered a number of conversion-related challenges that prevented it from
recording a significant number of transactions in Delphi. This situation interfered
with the FAA’s ability to produce accurate and complete financial and budgetary
reports. KPMG also noted deficiencies in FAA’s application of managerial cost
accounting standards, since FAA was not able to provide accurate and timely cost
information on its programs in FY 2004. In addition, KPMG found that six of
FAA’s key financial systems that feed financial data into Delphi do not comply
substantially with some categories of FFMIA requirements. For example, four of
the six feeder systems did not adhere to the Computer Security Act requirements
and lacked adequate internal controls.

KPMG recommended that FAA continue to work aggressively to fully integrate its
financial management systems and to produce accurate, timely, and reliable
management cost reports using the Cost Accounting System. Also, DOT should


                                         13
address and resolve the weaknesses noted in the six key financial systems used to
compile financial statements for FAA.


ANTI-DEFICIENCY ACT
Title 31, United States Code, Section 1517 provides that an officer or employee of
the U.S Government may not make or authorize an expenditure or obligation
exceeding an amount available in an allotment. In our report on the FY 2003
DOT Financial Statements, we reported that a total of five instances of
noncompliance had been identified in DOT. Of the five violations, the two
identified for FAA were reported and resolved during FY 2004; the one potential
violation identified in FHWA was researched and found to not be a violation; and
the remaining two violations, first reported in 2002, have not been fully resolved.

Clifton Gunderson reported that, during FY 2004, FHWA was reviewing four
potential violations, in which obligations may have exceeded budget authority by
about $600,000 as of September 30, 2004.


FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA)
The FMFIA requires agencies to implement formal procedures to identify, assess,
and monitor management controls to provide management with reasonable
assurance that controls remain effective.       Our report on the FY 2003
DOT Financial Statements concluded that the HTF agencies did not have formal
procedures in place to identify, assess, and monitor management controls over
their programs and resources, including their financial management systems.
Management controls—which include organization, policies, procedures, and
practices—are tools to help program and financial managers achieve results and
safeguard the integrity of their programs.

During FY 2004, Clifton Gunderson reported that the HTF agencies, except the
Federal Motor Carrier Safety Administration, have still not formalized procedures
to identify, assess, and monitor management controls. In addition, we found that
two other DOT agencies, the Office of the Secretary and the Research and Special
Programs Administration, have not fully assessed the effectiveness of their
management controls under FMFIA.




                                         14
SINGLE AUDIT ACT
Our report on the FY 2003 DOT Financial Statements found that DOT has not
effectively implemented certain provisions of the Single Audit Act, including
tracking the receipt of reports, distributing reports on time, and ensuring that
management makes timely decisions to implement report recommendations.
During FY 2004, Clifton Gunderson reported that the HTF agencies began
establishing procedures to monitor Single Audit Act activity and comply with
provisions related to OMB requirements. However, those procedures were not
fully implemented in FY 2004. Emphasis needs to be placed on ensuring that
management decisions are issued within the required 6 months.

GOVERNMENT PERFORMANCE AND RESULTS ACT (GPRA)
GPRA requires agencies to manage their programs in an efficient and effective
manner based on reliable financial and performance information. To comply with
GPRA, agencies need to have a system to track costs and allocate them to
individual programs and activities. This information is needed for management to
measure the efficiency and effectiveness of operations. Clifton Gunderson
reported that because HTF agencies have not fully implemented managerial cost
accounting systems, they were not able to present the full cost of each program in
the Statement of Net Cost for FY 2004. Further, as described below, because
DOT does not have systems in place to allocate costs by major program, the
performance measures presented in the Management Discussion and Analysis did
not provide information about cost effectiveness and were not linked to the cost of
achieving targeted results or to the Statement of Net Cost.


D. CONSISTENCY OF OTHER INFORMATION
The Management Discussion and Analysis, required supplementary information
(including stewardship information), and other accompanying information contain
a wide range of data, some of which are not directly related to the financial
statements. We are not required to, and we do not, express an opinion on this
information. As required by OMB guidance, we compared this information for
consistency with the DOT Consolidated Financial Statements and discussed the
methods of measurement and presentation with DOT officials. Based on this
work, we found no material inconsistencies with the DOT Consolidated Financial
Statements or nonconformances with OMB guidance. Further, because DOT does
not have systems in place to allocate costs by major program, the performance
measures did not provide information about cost effectiveness and were not linked
to the cost of achieving targeted results or to the Statement of Net Cost.


                                         15
E. PRIOR AUDIT COVERAGE
Our report on the DOT Consolidated Financial Statements for FYs 2003 and 2002
expressed an unqualified opinion and made two recommendations. They were:
(1) that MARAD establish and implement procedures to improve the accounting
for inventory, property, and environmental liabilities, and (2) that DOT establish a
module or subsidiary ledger system in Delphi to improve the accounting for loans
receivable. Our report on the DOT Consolidated Financial Statements for
FYs 2002 and 2001 made one recommendation: that DOT confirm and reconcile
intra-governmental balances with trading partners. As discussed in Section B,
MARAD has improved its accounting for inventory, property, and environmental
liabilities; but additional work is needed to implement the other recommendations.

Since we issued our report on the DOT Consolidated Financial Statements for
FYs 2003 and 2002, we issued 12 reports related to the DOT Consolidated
Financial Statements. The reports are listed in Exhibit B.

The Assistant Secretary for Budgets and Programs/Chief Financial Officer
provided comments on a draft of the report (See Appendix). The response agreed
with the material weaknesses and reportable conditions in this report and stated
that corrective actions have already been initiated. Management agreed to provide
a detailed action plan addressing each finding by December 15, 2004.

This report is intended for the information of and use by DOT, the Office of
Management and Budget, the Government Accountability Office, and Congress.
This report is a matter of public record, and its distribution is not limited.




Kenneth M. Mead
Inspector General




                                         16
EXHIBIT A. OBJECTIVES, SCOPE,
AND METHODOLOGY
Our audit objectives for the DOT Consolidated Financial Statements for FYs 2004
and 2003 were to determine whether: (1) principal DOT Consolidated Financial
Statements and accompanying notes are presented fairly, in all material respects,
in conformity with U.S. generally accepted accounting principles; (2) DOT has
adequate internal controls over financial reporting, including safeguarding assets;
(3) DOT has complied with laws and regulations that could have a direct and
material effect on the DOT Consolidated Financial Statements or that have been
specified by OMB, including FFMIA; (4) financial information in the
Management Discussion and Analysis is materially consistent with the
information in the principal DOT Consolidated Financial Statements; (5) internal
controls ensured the existence and completeness of reported data supporting
performance measures; and (6) supplementary, stewardship, and other
accompanying information is consistent with management representations and the
DOT Consolidated Financial Statements.

DOT is responsible for (1) preparing the DOT Consolidated Financial Statements
for FYs 2004 and 2003 in conformity with U.S. generally accepted accounting
principles; (2) establishing, maintaining, and assessing internal controls to provide
reasonable assurance that broad control objectives of FMFIA are met; (3) ensuring
that DOT financial management systems substantially comply with FFMIA
requirements; and (4) complying with other applicable laws and regulations.

We are responsible for obtaining reasonable assurance whether the DOT
Consolidated Financial Statements for FY 2004 and FY 2003 are presented fairly,
in all material respects, in conformity with U.S. generally accepted accounting
principles. DOT is responsible for preparing financial statements in conformity
with U.S. generally accepted accounting principles and establishing and
maintaining an effective system of internal controls. The objectives of these
controls are explained below.

• Financial reporting. Transactions are properly recorded, processed, and
  summarized to permit the preparation of financial statements and stewardship
  information in conformity with U.S. generally accepted accounting principles,
  and assets are safeguarded against loss from unauthorized acquisition, use, or
  disposition.

• Compliance with laws and regulations. Transactions are executed in
  accordance with laws governing the use of budget authority and with other
  laws and regulations that could have a direct and material effect on the


                                          17
      financial statements and any other laws, regulations, and Government-wide
      policies identified by OMB audit guidance.

• Performance measures. Transactions and other supporting data are properly
  recorded and summarized.

We are also responsible for (1) obtaining sufficient understanding of internal
controls over financial reporting and compliance to plan the audit, (2) testing
compliance with selected provisions of laws and regulations that have a direct and
material effect on the financial statements and laws for which OMB audit
guidance requires testing, and (3) performing limited procedures with respect to
certain other information appearing in the DOT Consolidated Financial Statements
for FYs 2004 and 2003.

To fulfill these responsibilities, we (1) examined, on a test basis, evidence
supporting the amounts and disclosures in the financial statements; (2) assessed
the accounting principles used and significant estimates made by management;
(3) evaluated the overall presentation of the financial statements; (4) obtained an
understanding and performed limited tests of internal controls related to financial
reporting, compliance with laws and regulations, and performance measures
reported in the Management Discussion and Analysis; and (5) tested compliance
with selected provisions of certain laws, including FFMIA.

Under contract with OIG and under our supervision, KPMG audited the financial
statements of FAA as of and for the years ended September 30, 2004, and
September 30, 2003. KPMG rendered an unqualified opinion on the FAA
financial statements. Also under contract with OIG and under our supervision,
Clifton Gunderson audited the financial statements of the HTF as of and for the
years ended September 30, 2004, and September 30, 2003.2 Clifton Gunderson
rendered an unqualified opinion on the HTF financial statements. We reviewed
the work of KPMG on the FAA financial statements and Clifton Gunderson on the
HTF financial statements and determined that the work was performed in
accordance with Government Auditing Standards. We relied on their work.

The Government Accountability Office performed agreed upon procedures at the
Internal Revenue Service on the excise taxes distributed to the HTF and the
Airport and Airway Trust Fund during FY 2004. The Treasury Office of Inspector
General reported on the effectiveness of controls placed in operation over the
Bureau of Public Debt Trust Fund Management Branch and Federal Investments
Branch for the period October 1, 2003, to July 31, 2004, and attained
management’s assurance on the effectiveness of the controls through

2
    Clifton Gunderson also performed audit procedures related to Appropriated accounts and balances in the FY 2004
    and FY 2003 DOT consolidated financial statement related to HTF agencies, which we relied on.


                                                         18
September 30, 2004. The Treasury Office of Inspector General also reported on
selected schedule of assets and liabilities of the HTF and the Airport and Airway
Trust Fund prepared by the Bureau of Public Debt Trust Fund Management
Branch.

We did not evaluate all internal controls relevant to operating objectives as
broadly defined by FMFIA, such as those controls relevant to ensuring that
programs achieve their intended results and resources are used consistent with
agency missions. We limited our internal control testing to controls over financial
reporting and compliance. Because of inherent limitations in internal controls,
misstatements due to error or fraud, losses, or noncompliance may nevertheless
occur and not be detected. We also caution that our internal control testing may
not be sufficient for other purposes and that projecting our evaluation to future
periods is subject to the risk that controls may become inadequate because of
changes in conditions or that compliance with controls may deteriorate.

We did not test compliance with all laws and regulations applicable to DOT. We
limited our tests of compliance to those laws and regulations required by OMB
audit guidance that we deemed applicable to the DOT Consolidated Financial
Statements for the years ended September 30, 2004, and September 30, 2003. We
caution that noncompliance may occur and not be detected by these tests and that
such testing may not be sufficient for other purposes.

The Chief Financial Officers of DOT and each Administration have been assigned
the responsibility to address the weaknesses identified in this report.
Management’s response to the findings and recommendations in this report is
contained in the Appendix.

We performed our work in accordance with Government Auditing Standards and
OMB Bulletin 01-02, “Audit Requirements for Federal Financial Statements.”




                                         19
EXHIBIT B. FINANCIAL-RELATED REPORTS
                  TITLE                          REPORT NUMBER    DATE ISSUED

Inactive Obligations, FHWA                          FI-2004-039   March 31, 2004

Cargo Preference Billing and Payment                FI-2004-057   May 5, 2004
 Process, MARAD

Audit of Financial Controls for Cost                FI-2004-076   August 4, 2004
 Accounting and Billing Practices, Volpe
 National Transportation Systems Center,
 RSPA

Independent Accountant’s Report on the              FI-2004-096   September 28, 2004
 Application of Agreed-Upon Procedures:
 Selected Personnel Related Cost Items

FAA’s Administration and Oversight of               AV-2004-094   September 28, 2004
 Regionally Issued Contracts

Title XI Loan Guarantee Program, MARAD              CR-2004-095   September 28, 2004

Audit of the Tren Urbano Rail Transit Project,      MH-2004-098   September 29, 2004
 Federal Transit Administration

Inactive Obligation, MARAD                          FI-2004-099   September 30, 2004

Information Security Program, Department            FI-2005-001   October 1, 2004
 of Transportation

Quality Control Review of Audited Financial         QC-2005-004   November 9, 2004
 Statements for FY 2004 and FY 2003,
 Saint Lawrence Seaway Development
 Corporation

Quality Control Review of Audited Financial         QC-2005-006   November 10, 2004
 Statements for FY 2004 and FY 2003,
 Federal Aviation Administration

Quality Control Review of Audited Financial         QC-2005-006   November 10, 2004
 Statements for FY 2004 and FY 2003,
 Highway Trust Fund




                                            20
APPENDIX. Assistant Secretary for Budget and
Programs/Chief Financial Officer Response to Audit
Report




                           21
